        U.S. ELECTION ASSISTANCE COMMISSION
             OFFICE OF INSPECTOR GENERAL




                           FINAL REPORT:

                           ASSESSMENT OF THE
                U.S. ELECTION ASSISTANCE COMMISSION’S
                 PROGRAM AND FINANCIAL OPERATIONS




NO. I-EV-EAC 01-07(B)
FEBRUARY 2008
                                  U.S. ELECTION ASSISTANCE COMMISSION
                                           OFFICE OF INSPECTOR GENERAL
                                         1225 New York Ave. NW - Suite 1100
                                               Washington, DC 20005




                                                                                   February 25, 2008


To:        Rosemary E. Rodriguez
           Chair

From:      Curtis Crider
           Inspector General

Subject: Final Report, Assessment of the U.S. Election Assistance Commission’s Program and
         Financial Operations Assignment No. (I-EV-EAC 01-07(B))

      This assessment identified long-standing and over-arching weaknesses related to operations
of the Election Assistance Commission (EAC) that need to be addressed immediately.

      We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to perform and document an assessment of EAC’s program and
financial operations focusing on management processes and controls. The assessment disclosed
that EAC lacks:

      •   Short and long-term strategic plans, performance goals and measurements to guide the
          organization and its staff.

      •   An organizational structure that clearly defines areas of responsibility and an effective
          hierarchy for reporting.

      •   Appropriate and effective internal controls established on the basis of risk assessments.

      •   Policies and procedures in all programs areas to document governance and accountability
          structure and practices in place. It is imperative that the Commissioner’s define their roles
          and responsibilities in relationship to the daily operations of the EAC and to assume the
          appropriate leadership role.

      EAC management has initiated several initiatives to address the issues identified in the
report. This is good, however; the basic components for a sound organization - -goals, objectives,
plans, policies and procedures should have already been implemented.
      Based on the Executive Director’s (ED) response to the draft report , we consider
Recommendations No. 2a, 11 and 12 pertaining to the evaluation of the organizational structure
and clearly defining areas of authority and responsibility, and hierarchy for reporting closed..
Although the ED addressed all the remaining recommendations, they were considered open
because corrective actions have not been implemented. Due to the significant nature of the
findings and recommendations, we are requesting that the Executive Director provide the OIG,
on a monthly basis, an update on the status of the corrective actions.

     The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report.

     We appreciate the cooperation provided by the Commission during our audit. If you have
any questions about this report, please call me at (202) 566-3125.
      UNITED STATES ELECTION ASSISTANCE
               COMMISSION (EAC)




Assessment of EAC’s Program and Financial Operations
      February 26, 2007 to September 15, 2007




                 A1
                                                         TABLE OF CONTENTS



                                                                                                                                                   PAGE

TRANSMITTAL LETTER.........................................................................................................................1


EXECUTIVE SUMMARY...........................................................................................................................3


BACKGROUND .............................................................................................................................................3


OBJECTIVE ....................................................................................................................................................4


SCOPE AND METHODOLOGY.............................................................................................................4


RESULTS OF OUR ASSESSMENT........................................................................................................5


APPENDIX A ................................................................................................................................................21
A1
February 13, 2008



Mr. Curtis Crider
Office of the Inspector General
U.S. Election Assistance Commission
1225 New York Avenue, Suite 1100
Washington, DC 20005

Dear Mr. Crider:

Clifton Gunderson (CG) was engaged by the Office of Inspector General to perform and document
an assessment of the U.S. Election Assistance Commission’s (EAC) program and financial
operations focusing on management processes and controls. This report details the results of our
assessment.

We interviewed key management personnel and examined supporting documentation provided by
EAC to obtain an understanding of the EAC’s organizational structure and its management
processes and practices. We documented our understanding of management processes and
operations in process cycle memos which were provided to EAC management for comment. Our
review did not include testing effectiveness of controls, and was limited to assessing the design of
internal controls.

We were not engaged to and did not conduct an examination, the objective of which would be the
expression of an opinion on our assessment of EAC’s financial and program operations.
Accordingly, we do not express such an opinion.

We provided a preliminary findings/conditions and recommendations report to EAC management.
We have considered management’s preliminary responses/comments and have incorporated their
comments in this report. Management agrees or partially agrees with the findings/conditions and
recommendations. We have also included as Appendix A the final responses/comments received
from the EAC management on February 6, 2008.

We performed our work in Washington, DC from February 26, 2007 to September 15, 2007.




11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                    1
                                   Offices in 17 states and Washington, DC      h
We appreciate the opportunity to serve you and will be pleased to discuss any questions you may
have. Please feel free to contact Mia Leswing at 301-931-2050 or Mia.Leswing@cliftoncpa.com if
you have any questions or require additional information.

Sincerely,

CLIFTON GUNDERSON LLP


î
Mia Leswing, CPA, CISA, CGFM
Partner




                                              2
EXECUTIVE SUMMARY

In recent years, Congress has passed a number of governance and accountability legislations that
impacted Federal agencies. The commonly accepted governance, accountability, and management
practices for Federal entities have significantly evolved as a result of these laws and regulations. The
EAC, as a newly created agency established by the Help America Vote Act of 2002 (HAVA), faces
an enormous challenge to hit the road running.

CG was engaged by the EAC Office of Inspector General to perform and document an assessment
of EAC’s program and financial operations focusing on management processes and controls.

In performing our review, we used the Standards for Internal Control in the Federal Government issued by
the General Accounting Office (now called Government Accountability Office) and the Office of
Management and Budget (OMB) Circular No. A-123, Management Responsibility for Internal Control.

Our review identified three over-arching recommendations related to the organizational
infrastructure that need to be addressed by EAC management as a priority.

•   The EAC Executive Director (ED), in consultation with various offices and directorates, needs
    to develop, document and communicate short and long-term strategic plans, performance goals
    and measurements. This will enable the program offices to prioritize their tasks using their
    limited resources.
•   As a new agency, two key standards of internal control (Control Environment and Risk
    Assessment) must be strengthened as a priority. We noted in our process cycle memos
    documentation that these two key standards were primarily the reasons for control deficiencies
    identified in the programs and offices.
•   There is a critical need for establishing policies and procedures in all program areas to document
    governance and accountability structures and practices in place. Such policies will include
    describing the roles, responsibilities and authorities of individuals (including the Executive
    Director and the Commissioners) and offices in carrying out EAC’s daily operations.

EAC management recognized the conditions resulting in above recommendations and has started
many initiatives to address them while our review was in progress.


BACKGROUND

The EAC was established by HAVA. Central to its role, EAC serves as a national clearinghouse and
resource for information and review of procedures with respect to the administration of Federal
elections. According to the text of HAVA, the law was enacted to:

      “…establish a program to provide funds to states to replace punch card voting systems, to
      establish the Election Assistance Commission to assist in the administration of Federal
      elections and to otherwise provide assistance with the administration of certain Federal
      election laws and programs, to establish minimum election administration standards for states
      and units of local government with responsibility for the administration of Federal elections,
      and for other purposes.”


                                                   3
HAVA requires the EAC to:

•    Generate technical guidance on the administration of Federal elections.
•    Produce voluntary voting systems guidelines.
•    Research and report on matters that affect the administration of Federal elections.
•    Provide information and guidance with respect to laws, procedures, and technologies affecting
     the administration of Federal elections.
•    Administer payments to states to meet HAVA requirements.
•    Provide grants for election technology development and for pilot programs to test election
     technology.
•    Manage funds targeted to certain programs designed to encourage youth participation in
     elections.
•    Develop a national program for the testing, certification, and decertification of voting systems.
•    Maintain the national mail voter registration form that was developed in accordance with the
     National Voter Registration Act of 1993 (NVRA), report to Congress every two years on the
     impact of the NVRA on the administration of Federal elections, and provide information to
     states on their responsibilities under that law.
•    Audit persons who received Federal funds authorized by HAVA from the GSA or the EAC.
•    Submit an annual report to Congress describing EAC activities for the previous fiscal year (FY).

The ED is the head of the agency and reports to the Commissioners. The EAC has four
Commissioners who are appointed by the President and confirmed by the U.S. Senate. The EAC
has 6 program offices during the assessment period:

1.   Office of General Counsel.
2.   Standards and Certification Directorate.
3.   Office of OC s.
4.   Research Directorate.
5.   Office of Finance and Administration.
6.   Office of Programs and Services.


OBJECTIVE

Our objective was to perform and document an assessment of EAC’s program and financial
operations focusing on management processes and controls.


SCOPE AND METHODOLOGY

We interviewed key management personnel of each program office and examined supporting
documentation to obtain an understanding of the EAC’s organizational structure and its
management processes and practices. We documented our understanding of management processes
and operations in process cycle memos which were provided to EAC management for comment.
Our review did not include testing effectiveness of controls, and was limited to assessing the design



                                                  4
of internal controls. We performed our work in Washington, DC from February 26, 2007 to
September 15, 2007.

We provided a preliminary findings/conditions and recommendations report to EAC management.
EAC Management agrees or partially agrees with the findings/conditions and recommendations.
We have considered management’s preliminary responses/comments and have incorporated their
comments in this report. We have also included as Appendix A the final responses/comments
received from the EAC management on February 6, 2008.


RESULTS OF OUR ASSESSMENT

OVERALL ASSESSMENT

Our review identified three over-arching recommendations related to the organizational
infrastructure that need to be addressed by EAC management as a priority.

•   The EAC ED, in consultation with various offices and directorates, needs to develop, document
    and communicate short and long-term strategic plans, performance goals and measurements.
    This will enable the program offices to prioritize their tasks using their limited resources.
•   As a new agency, two key standards of internal control (Control Environment1 and Risk
    Assessment2) must be strengthened as a priority. We noted in our process cycle memos
    documentation that these two key standards were primarily the reasons for control deficiencies
    identified in the programs and offices.
•   There is a critical need for establishing policies and procedures in all program areas to document
    governance and accountability structures and practices in place. Such policies will include
    describing the roles, responsibilities and authorities of individuals (including the ED and the
    Commissioners) and offices in carrying out EAC’s daily operations.

    EAC Management Response:

    •    EAC has developed the goals of the organization through staff input and the use of a
         facilitator and a contractor. The goals are presented to the Commissioners on September 4,

1
  OMB Circular A-123, Management’s Responsibility for Internal Control, discusses Control Environment as follows: “Within
the organizational structure, management must clearly:
• Define areas of authority and responsibility.
• Appropriately delegate the authority and responsibility throughout the agency.
• Establish a suitable hierarchy for reporting.
• Support appropriate human capital policies for hiring, training, evaluating, counseling, advancing, compensating,
     and disciplining personnel.
• Uphold the need for personnel to possess and maintain proper knowledge and skills to perform their assigned
     duties as well as understand the importance of maintaining effective internal control within the organization.

2 OMB Circular A-123, Management’s Responsibility for Internal Control, states that “Management should identify internal and
external risks that may prevent the organization from meeting its objectives. When identifying risks, management
should take into account relevant interactions within the organization as well as with outside organizations. Identified
risks should then be analyzed for their potential effect or impact on the agency.”



                                                             5
          2007. Once the goals are adopted by the Commissioners, we will identify the objectives and
          performance measures by March 2008. The completion target date is September 30, 2008.
      •   We have drafted a new EAC organization chart and have presented it to the Commissioners.
          After review and any necessary revision, we anticipate formal adoption of the chart by
          December 30, 2007.
      •   We believe that it will be prudent to complete our policies and procedures before we
          conduct the internal control review required by OMB Circular A-123. We anticipate
          performing the review by September 30, 2009.


DETAILED ASSESSMENT

Detailed below is our findings or the conditions identified for each office/program.


 Process                Finding/                                         EAC Preliminary         CG Comments
  Cycle                Condition            Recommendation                  Comments3
Office of         1. Although OGC         1. EAC should consider      1. The new                 1. CG has
General           explained that it       hiring staff with Federal   organization chart         reviewed the
Counsel           provides assistance     budgeting experience or     recognizes that            draft
(OGC)             in the preparation of   provide training to         preparation of the         organization
                  the budget              appropriate staff in the    budget is not a            chart showing
                  submitted to OMB,       Office of Finance,          responsibility of the      budgeting and
                  we noted that OGC       [Budget], and               OGC. However, we           monitoring
                  actually prepares the   Administration to carry     do not agree that          responsibility
                  budget. The budget      out this function.          budgeting must be          within the
                  process is not a                                    performed by an            Office of
                  function that is                                    individual who             Administration.
                  normally carried out                                specializes in Federal
                  by the OGC. It is                                   budgeting. We believe
                  performed by                                        that budgets should be
                  personnel who                                       prepared by staff
                  specialize in Federal                               responsible for
                  budgeting. We                                       administering
                  concurred with                                      programs and the
                  OGC that the ED is                                  budget process should
                  ultimately                                          be managed by the
                  responsible for the                                 ED. Also, we agree
                  budget.                                             that training is
                                                                      desirable. We will
                                                                      provide for the
                                                                      appropriate training
                                                                      this year, to the extent
                                                                      that staff has not had
                                                                      training in the Federal
                                                                      budget process.
Standards         2. EAC does not have    2a. EAC should develop      2a. The EAC disagrees      2. CG agrees that
and               policies and            and implement policies      that it does not have      the three advisory

3
    See the EAC management final responses/comments in Appendix A.


                                                      6
 Process               Finding/                                          EAC Preliminary           CG Comments
  Cycle                Condition              Recommendation                 Comments3
Certification    procedures that            and procedures to          policies or procedures in   boards are
Directorate      govern the following:      ensure that there is a     place to govern and         governed by
                 • Process for              clear understanding of     define the role of the      various rules and
                    developing and          the process that will be   three EAC advisory          regulations as a
                    modifying the           followed and that EAC      committees related to       result of their
                    Voluntary Voting        ultimately has a           their work in developing    creation.
                    System Guidelines       responsibility for         and reviewing the           However, CG
                    (VVSG). There are       overseeing this process.   VVSG. HAVA created          recommends
                    three groups            Moreover, policy related   three advisory boards,      policies and
                    (TGDC4,                 to conflict of interest    the Board of Advisors,      procedures that
                    Standards Board,        and ethics should be       the Standards Board,        will incorporate
                    and the Board of        established.               and the Technical           these rules into
                    Advisors)                                          Guidelines                  EAC’s
                    comprised of            2b. EAC should ensure      Development                 responsibility for
                    people who are not      the Laboratory             Committee. As Federal       overseeing these
                    EAC employees,          Accreditation Program      advisory committees, the    processes.
                    but play a vital role   Manual under               individuals in these
                    in this process. As     development is             groups are all required
                    such, there needs       completed by the end of    to comply with the
                    to be a clear           FY 2007.                   Federal Advisory
                    understanding on                                   Committee Act (FACA)
                    what each group                                    (Pub. L. 92-463). In
                    (including EAC) is                                 addition, these groups
                    doing to support                                   are required to comply
                    this process and                                   with government ethics
                    how information                                    regulations promulgated
                    will be shared                                     by the Office of
                    among these                                        Government Ethics.
                    groups to ensure
                    that the process is                                As Federal advisory
                    carried out                                        committees, each group
                    appropriately,                                     has a charter indicating
                    timely and                                         the scope and objectives
                    efficiently.                                       of their duties. All work
                 • Lab accreditation                                   performed by these
                    process – EAC                                      groups is done in an
                    does not have                                      open, public forum
                    formal internal                                    consistent with FACA,
                    policies and                                       government ethics
                    procedures that                                    guidelines, and the
                    govern interim or                                  Government in the
                    full laboratory                                    Sunshine Act. Further,
                    accreditation                                      each group has a set of
                    process. However,                                  bylaws that govern the
                    EAC is currently in                                members’ specific roles
                    the process of                                     and responsibilities.
                                                                       Finally, a number of the

4
    TGDC = Technical Guidelines Development Committee


                                                        7
 Process            Finding/                                           EAC Preliminary           CG Comments
  Cycle             Condition            Recommendation                   Comments3
                  developing a                                      members are also
                  Laboratory                                        Special Government
                  Accreditation                                     Employees (SGEs) and
                  Manual, which will                                as such are covered by
                  be completed                                      ethics, conflict of
                  before the end of                                 interest and confidential
                  FY 2007.                                          financial disclosure
                                                                    requirements common
                                                                    to all government
                                                                    employees. These
                                                                    disclosures and
                                                                    guidelines allow
                                                                    Government officials to
                                                                    determine if a conflict of
                                                                    interest exists between
                                                                    individuals’ public sector
                                                                    interests and private
                                                                    interests and activities.

                                                                    2b. We have completed
                                                                    the final draft of the
                                                                    Laboratory Accreditation
                                                                    Program Manual. We are
                                                                    now completing the
                                                                    final edits prior to
                                                                    submitting the
                                                                    document to the Federal
                                                                    Register for publication
                                                                    for a 30-day public
                                                                    comment period, in
                                                                    conjunction with
                                                                    publishing it to satisfy
                                                                    the requirements of the
                                                                    Paperwork Reduction
                                                                    Act.
Office of       3. EAC does not         3a. EAC should develop      3a. After EAC adopts a  3. CG reviewed
Commun-         appear to have a        a communication             mission statement, goals,
                                                                                            the 2007
ications (OC)   systematic process in   strategic plan and goals,   and a strategic plan, the
                                                                                            communication
                place for developing,   and establish written       OC will provide a       plan provided
                approving, and          policies and procedures     corresponding and more  by EAC in
                maintaining formal      to ensure authorized and    targeted                response to our
                policies and            consistent                  communications strategy preliminary
                procedures over         implementation of its       centered on the agency’sfindings/
                communications.         communication.              official priorities.    conditions. We
                Although EAC does                                                           believe that the
                have a document,        3b. EAC should also         However, it should be   plan is still not
                Communicating with      have policies and           noted that the OC       adequate as it
                Stakeholders, dated     procedures such as          presented an overall    does not address
                November 2006, this     implementation of the       communications strategy all of the basic


                                                    8
Process         Finding/                                    EAC Preliminary        CG Comments
 Cycle         Condition            Recommendation             Comments3
          document gives          Freedom of             in 2006, stressing the    elements
          recommendations for     Information Act, the   need to increase          mentioned in
          more information and    Privacy Act            communications with       the condition.
          plans for FY 2007. It   Regulations, and       stakeholders such as
          does not give any       Records Management.    Congressional staffers
          indication of the                              and election officials as
          processes and                                  well as providing
          procedures for                                 recommended methods
          communication, i.e.:                           of communication.
          • What                                         Also, in 2007, the OC
             communication is                            conducted a
             authorized?                                 communications audit
          • How should                                   that identified
             communication be                            outstanding tasks and
             prepared?                                   offered
          • Who should                                   recommendations for
             prepare them?                               moving forward and
                                                         communicating
          • How often should
                                                         effectively with
             they be prepared?
                                                         stakeholders. Although
          • Who should                                   Clifton Gunderson cited
             authorize them?                             the 2006
          • Who should                                   communications plan,
             receive them?                               they did not mention the
          • How should they                              2007 communications
             be received?                                audit and strategy
          • Who should review                            recommendations. We
             them (ED, OGC,                              provided the 2006 plan
             Commissioners,                              and the 2007 plan to
             and/or Special                              Clifton Gunderson.
             Assistants)?
                                                         3b. Manual/procedures
          The director                                   for other programs and
          indicated that there                           administrative activities
          was no Commission                              will be prepared in
          strategic plan upon                            accordance with an
          which to build upon                            action plan to be
          a comprehensive                                submitted in response to
          communications                                 the draft assessment
          strategy. The result                           report.
          of the absence of an
          overall EAC
          strategic plan and
          goals has resulted in
          the Commission
          consistently being in
          a reaction mode, and
          struggling to
          prioritize its


                                             9
 Process        Finding/                                      EAC Preliminary           CG Comments
  Cycle        Condition            Recommendation              Comments3
            numerous projects.


Office of   4. The Director and    4. EAC should            4. Manual/procedures
Commun-     the Deputy Director    develop written          for other programs
ications    prepare and track a    policies and             and administrative
            tremendous amount      procedures to            activities will be
            of documentation.      minimize the impact      prepared in accordance
            The loss of either     of human capital loss,   with an action plan to
            one of these           if any, to its           be submitted in
            individuals would be   operations.              response to the draft
            a serious problem                               assessment report.
            for EAC, because
            the institutional                               Also, to facilitate the
            knowledge regarding                             availability of
            how things are done                             information to EAC, the
            would be lost due to                            OC makes almost all
            lack of documented                              documents created and
            policies and                                    distributed by its team
            procedures.                                     available to all staff.
                                                            Specifically, the
                                                            information is available
                                                            on a database, which is
                                                            housed on the server
                                                            and is backed up.

                                                            Information that is
                                                            available to all staff
                                                            independent of the OC
                                                            team includes the daily
                                                            news clips, the weekly
                                                            news clips, monthly
                                                            electronic newsletter,
                                                            news alerts, and all
                                                            information distributed
                                                            to stakeholders. The
                                                            news clips and media
                                                            logs will be available
                                                            through a desktop
                                                            database, which is
                                                            housed on the server
                                                            and backed up.
                                                            Employees will be able
                                                            to search the database
                                                            by keyword, reporter
                                                            name, and date. All that
                                                            remains to be done is
                                                            for this database
                                                            interface to be installed


                                               10
Process   Finding/                        EAC Preliminary          CG Comments
 Cycle    Condition   Recommendation         Comments3
                                       on all computers. In
                                       addition, all of these
                                       documents are available
                                       to the staff on the Media
                                       and OC folder on the
                                       server. They are
                                       organized by state and
                                       by date and searchable
                                       by keyword. The media
                                       inquiries are also housed
                                       in a database on the
                                       server and backed up.

                                       In addition, all press
                                       releases and news
                                       alerts are available on
                                       the EAC website.
                                       Furthermore, in
                                       conjunction with the
                                       Voting Systems team,
                                       the OC has expanded
                                       the web presence of
                                       that program area,
                                       making many more
                                       documents available
                                       not only to the staff
                                       but also to the public.
                                       Information is
                                       available on the
                                       website about
                                       registered
                                       manufacturers, voting
                                       systems under
                                       consideration, test
                                       plans, and accredited
                                       labs. This information
                                       is not static – it is
                                       updated weekly and
                                       sometimes even more
                                       frequently. Providing
                                       this information
                                       assures that the staff is
                                       aware of the latest
                                       developments in this
                                       important program
                                       area, as well as notifies
                                       the public and election
                                       officials. The bottom
                                       line is that the entire


                             11
 Process           Finding/                                          EAC Preliminary          CG Comments
  Cycle            Condition             Recommendation                 Comments3
                                                                  staff receives at least
                                                                  two emails daily from
                                                                  the OC, and all of this
                                                                  information is
                                                                  available, searchable
                                                                  and backed up. If
                                                                  both employees were
                                                                  not in the office, all of
                                                                  this information is
                                                                  accessible. Also, press
                                                                  releases and news
                                                                  announcements are
                                                                  easily accessible via the
                                                                  EAC website.
Research      5. EAC does not           5. EAC should             5. Manual/procedures
Directorate   have policies and         establish policies and    for other programs
              procedures that           procedures related to     and administrative
              govern the research       the research process      activities will be
              process and the           and the clearinghouse     prepared in accordance
              clearinghouse             function. This will       with an action plan to
              function.                 include developing a      be submitted in
                                        formal peer review        response to the draft
                                        process for the           assessment report.
                                        research methodology
                                        and results; and
                                        policies and
                                        procedures related to
                                        the research process
                                        from initiation through
                                        reporting.
Research      6. We noted that          6. EAC should             6. Manual/procedures
Directorate   mandated studies and      establish a process to    for other programs
              reports were not          ensure that mandated      and administrative
              submitted by due          studies are prioritized   activities will be
              dates. To illustrate:     considering the limited   prepared in accordance
              • The mandated            resources that it has.    with an action plan to
                 study and report                                 be submitted in
                 under Section 244                                response to the draft
                 on voters who                                    assessment report.
                 register by mail and
                 use of social
                 security
                 information was
                 due on July 1, 2005.
                 Contract work did
                 not begin until
                 September 11, 2006
                 for the mail study
                 and October 30,


                                                    12
Process        Finding/                              EAC Preliminary   CG Comments
 Cycle        Condition             Recommendation     Comments3
            2006 for social
            security
            information. This
            report was over
            two years late as of
            July 1, 2007.
          • The mandated
            study and report
            under Section 245
            on electronic
            voting and the
            electoral process
            was due on April
            29, 2004. Contract
            work did not begin
            until September 22,
            2006. This report
            was over three
            years late as of July
            1, 2007.
          • The mandated
            study and report
            under Section 246
            on free absentee
            ballot postage was
            due on October 30,
            2003. Contract
            work on this study
            did not begin until
            September 22,
            2006. This report
            was over three
            years late as of July
            1, 2007.

          EAC, in its 2003
          Annual Report to
          Congress, explained
          that EAC missed
          deadlines because it
          was not established
          until mid-December
          2003, and that EAC’s
          ability to make up for
          lost time in meeting
          these deadlines was
          fully dependent on
          receiving the funds it



                                           13
 Process          Finding/                                        EAC Preliminary        CG Comments
  Cycle          Condition             Recommendation               Comments3
            requested in its
            President’s budget
            submission for FY
            2005. However,
            having received the
            FY 2005 requested
            funds, we noted that
            none of the mandated
            studies were
            conducted using FY
            2005 funds and four
            research contracts to
            address election issues
            under Section 241,
            which were not
            mandated, were
            awarded using FY
            2005 funds.

            Given that such
            studies (Section 241)
            have no mandatory
            deadline for
            reporting to
            Congress, it appears
            that management
            should have used
            those resources
            towards getting
            those studies that
            had mandatory
            deadlines (i.e.,
            Sections 244, 245,
            246).
Office of   7. There was no           7. EAC ED needs to        7. We have drafted a
Finance     clear line of             re-evaluate the current   new EAC organization
and         authority as to which     organizational            chart and have
Admini-     office (Program and       structure and clearly     presented it to the
stration    Services Office or        define areas of           Commissioners. After
            the Office of             authority and             review and any
            Finance and               responsibility, and       necessary revision, we
            Administration) was       hierarchy for             anticipate formal
            responsible for           reporting.                adoption of the chart
            ensuring that the                                   by December 30, 2007.
            funding and
            accounting activities
            recorded by GSA
            were correct and
            reconciled.


                                                  14
 Process          Finding/                                           EAC Preliminary         CG Comments
  Cycle           Condition             Recommendation                 Comments3
            Typically, the Office
            of Finance is the
            office responsible
            for accounting of
            the receipts and
            disbursements of the
            HAVA funds and
            the Salaries &
            Expenses
            (appropriated)
            funds. Periodic
            reports of the
            financial activities
            are then provided to
            the managers,
            including program
            managers, for
            review. Program
            managers should
            then be able to
            analyze the propriety
            and accuracy of the
            accounting records.
Office of   8. As of November          8. EAC needs to             8. EAC believes that      8. CG agrees
Finance     30, 2006, we noted         resolve this issue with     this matter should be     that the
and         that the SF-133 report     GSA. Going forward,         discussed under the       Programs and
Admini-     shows Fund 803             EAC should review and       Programs and Services     Services
stration    (Appropriation No.         perform a periodic          Division. However,        Division has the
            95X1651), which            reconciliation of its       our response to the       responsibility to
            covers HAVA Title II       financial activities with   recommendation is         monitor the
            requirement payments       GSA’s accounting            that the Administrative   program status
            shows an unobligated       records.                    Division will perform     of funds.
            available balance of                                   the reconciliations.      However, CG
            $9,072,894. It is our                                                            believes that the
            understanding that all                                                           office of finance
            funding for HAVA                                                                 and
            Title II have been                                                               administration
            disbursed to the states.                                                         also has the
            HAVA Section 252,                                                                responsibility
            which addresses the                                                              for accounting
            allocation of those                                                              and reviewing
            funds, calls for full                                                            EAC’s status of
            disbursements of                                                                 funds for both
            funds appropriated for                                                           program and
            requirement                                                                      administrative
            payments.                                                                        (Salaries &
                                                                                             Expense) funds.
            The Programs and
            Services staff


                                                   15
 Process          Finding/                                        EAC Preliminary         CG Comments
  Cycle           Condition          Recommendation                 Comments3
            indicated that all
            funds had been
            awarded by
            December 31, 2005
            per their records and
            they have no idea
            why GSA is showing
            over $9 million of
            un-obligated
            available balance.
Office of   9. Fund 803             9. EAC needs to             9. Appropriate
Finance     (Appropriation #        implement or strengthen     procedures will be
and         9561650), which         its fund control reviews    developed and
Admini-     covers EAC’s FY         to ensure that funds are    implemented.
stration    2006 operations,        used timely and
            showed that as of       appropriately. Funds
            November 30, 2006,      control review should be
            $844,761 of the         performed monthly to
            funds expired           ensure that funds are
            because they were       obligated or de-obligated
            not used by EAC.        as needed.
            This amount
            represents about
            7.5% of the total net
            budget of
            $11,286,000 for FY
            2006 after the
            mandatory transfer
            to the National
            Institute of
            Standards and
            Technology.

            Prior to the issuance
            of our report, we
            learned that
            approximately $2.4
            million of EAC FY
            2007 Salaries &
            Expense funds
            expired.
Office of   10. EAC does not        10. EAC needs to            10. Manuals/
Finance     have written policies   establish written           Procedures for
and         and procedures that     policies and                program and
Admini-     fully govern:           procedures to ensure        administrative
stration    • Fiscal/Internal       that operations are         activities will be
               Budget               implemented                 prepared in accordance
               Management.          consistently, eliminate     with the action plan to
                                    or reduce confusion,        be submitted in


                                                16
 Process        Finding/                                           EAC Preliminary           CG Comments
  Cycle        Condition                 Recommendation               Comments3
            • Purchasing              and mitigate the risk of   response to the draft
              Human                   disruptions to its         assessment report.
              Resources Office        operations in case of a
              Management.             personnel change or
                                      termination.
Office of   11. EAC, since its        11. EAC’s ED, in           11. We will prepare the
Finance     inception and             consultation with the      list of applicable
and         operations in 2004,       OGC, needs to              financial laws and
Admini-     has not submitted the     develop a list of          regulations this year.
stration    assurance statements      financial laws and
            required in the Federal   regulations that are
            Manager Financial         applicable to the
            Integrity Act             Commission. Some of
            (FMFIA).                  the laws and
                                      regulations to consider
                                      are the FMFIA,
                                      GPRA, FFMIA, OMB
                                      Circulars A-136, A-
                                      123, A-130, and A-
                                      127.
Office of   12. GAO’s Standards       12. EAC management         12. As a first step, EAC
Finance     for Internal Control in   needs to identify          has engaged the Office
and         Federal Government        appropriate knowledge      of Personnel
Admini-     states that “Internal     and skills needed for      Management (OPM) to
stration    Control is a              various jobs and           perform an assessment
            continuous built-in       provide needed             of each employee’s
            component of              training. EAC              position description/job
            operations effected       management should          classification and duties
            by people.” We            consider hiring staff      to determine the
            believe that EAC          who will be                appropriate position
            does not have             responsible for the        classification and grade.
            sufficient                recording,                 Following the
            complement of             summarization, and         completion of the OPM
            personnel with an         reporting of               assessment, we plan to
            appropriate level of      accounting activities in   assess the skills and
            Federal government        accordance with            numbers of employees
            accounting                Federal government         in relation to our new
            knowledge,                generally accepted         organization structure.
            experience, and           accounting principles.
            training.                 Moreover, we believe
                                      EAC should conduct
                                      skills inventory
                                      assessment for all of
                                      its program offices.
Office of   13. EAC has not           13. EAC management         13. We have drafted a
Programs    fully developed           needs to establish a       HAVA Federal
and         policies and              systematic and formal      Payments and Grant
Services    procedures that           process for establishing   Assistance Manual. We
            govern programs           and approving policies     plan to finalize the


                                                  17
 Process          Finding/                                       EAC Preliminary             CG Comments
  Cycle           Condition              Recommendation             Comments3
            and services               and procedures. These    manual this year.
            operations                 policies and procedures
            pertaining to the          should also be centrally
            application, award,        maintained and readily
            reporting, oversight,      available for use by EAC
            and closure of             staff.
            Section 101, 102,
            and 251 or Section
            295 and 501 grants.
Office of   14. On February 2,         14. We recommend that      14. We have drafted a
Programs    2007, EAC added            EAC provides written       HAVA Federal
and         “Assistance for States –   guidance in addition to    Payments and Grant
Services    Completing HAVA            the examples posted in     Assistance Manual. We
            Annual Reports” in its     its website. This will     plan to finalize the
            website to help the        enhance the usability of   manual this year.
            states in their            the information and will
            reporting efforts.         minimize confusion.
            We noted, however,
            that by providing
            two different
            examples of
            narrative reporting
            with no additional
            written guidance,
            EAC continue to
            receive inaccurate or
            inconsistent reports.
Office of   15. EAC is in the          15. Given EAC’s            15. EAC believes that      15. CG agrees
Programs    process of addressing      limited resources,         annual audits by states    that the audits
and         the states’ compliance     management needs to        under the Single Audit     conducted by
Services    with the requirements      develop a systematic       Act and Inspector          the Office of
            for Section 102 funds      process for conducting     General audits of state    Inspector
            and the annual             some form of financial     administration of          General of the
            reporting                  management oversight       HAVA payments              state
            requirements for           to provide some            provides a sound           administration
            Section 101, 102 and       assurance that costs       control over state         of HAVA
            251 funds. We did          incurred are               expenditures. In           payments
            not note, however,         reasonable, allowable,     addition, we will review   provide a sound
            that EAC was               and valid based on the     state reports in           control over
            performing any form        purpose of the funding     accordance with the new    state
            of review/verification     provided under             manual.                    expenditures.
            of the state               HAVA Sections 101,                                    However, we
            expenditures. EAC          102 and 251.                                          believe that the
            requires the states to                                                           agency should
            certify the use of                                                               not rely solely
            Section 102 funds and                                                            on the detective
            provide                                                                          control provided
            documentation to                                                                 by the Office of
            support their                                                                    Inspector


                                                  18
 Process           Finding/                                        EAC Preliminary            CG Comments
  Cycle           Condition            Recommendation                Comments3
            outstanding                                                                       General audits.
            obligations as of the
            deadline.
Office of   16. EAC has not           16. We recommend           16. Congress extended        16. EAC should
Programs    fully developed the       that EAC have the          the period of availability   also have
and         policies and              policies and               for Section 102              developed
Services    procedures to             procedures approved        payments (see the U.S.       policies and
            implement the             and in place by the        Troop Readiness,             procedures on
            return of Section         revised deadline.          Veteran’ Care, Katrina       how to account
            102 funds for those                                  Recovery, and Iraq           for those states
            states that did not                                  Accountability               that did not
            submit a certification                               Appropriations Act of        receive a waiver
            that they could not                                  2007, Public law 110-28)     of the initial
            use the payment to                                   for states that received a   deadline.
            replace punch card                                   waiver of the initial
            or lever voting                                      deadline. Twenty out of
            machines in                                          thirty states received a
            qualifying precincts                                 waiver. The extension is
            within the state by                                  to the date of the first
            the regularly                                        Federal election held in
            scheduled                                            a state after March 1,
            November 2004                                        2008.
            general election. For
            those states that filed                              In addition, we have
            a certification, the                                 drafted a HAVA
            date has been                                        Federal Payments and
            postponed till the                                   Grants Assistance
            first election for                                   Manual. We plan to
            Federal Office held                                  finalize the manual this
            after January 1,                                     year.
            2006. The Congress
            extended the
            availability for states
            that obtained
            waivers (filed
            certifications) to the
            date of the first
            Federal election held
            in the state after
            March 1, 2008.
Office of   17. OMB Circular A-       17a. We recommend          17a. We have drafted
Programs    133, Audits of States,    that EAC develop           a HAVA Federal
and         Local Governments, and    policies and procedures    Payments and Grants
Services    Non-Profit                to implement audit         Assistance Manual.
            Organizations, Subpart    follow-up as required in   We plan to finalize the
            D, Section 400(c)(5)      OMB A-133. If EAC          manual this year.
            states that it is the     does not address audit
            Federal awarding          findings in a timely       17b. As a first step,
            agency’s responsibility   manner, then the           EAC has engaged the


                                                  19
 Process          Finding/                                          EAC Preliminary          CG Comments
  Cycle           Condition            Recommendation                  Comments3
            to issue a management    corrective action needed    OPM to perform an
            decision on audit        could be delayed. As        assessment of each
            findings within six      such, problems noted        employee’s position
            months after receipt     during the audit may        description/job
            of an audit report and   continue and may have       classification and
            ensure the recipient     an adverse effect on the    duties to determine the
            takes appropriate and    use of HAVA funds for       appropriate position
            timely corrective        EAC operations.             classification and
            action. EAC does not                                 grade. Following the
            have policies and        17b. EAC                    completion of the
            procedures to follow-    management should           OPM assessment, we
            up audit findings.       perform a risk-based        plan to assess the skills
                                     assessment to evaluate      and numbers of
            As of September          the sufficiency of its      employees in relation
            2007, we noted that      personnel to ensure         to our new
            EAC has done             that the program’s day      organization structure.
            significant progress     to day operations and
            in this area.            oversight do not suffer
                                     due to limited
                                     resources.
Office of   18. EAC does not         18. EAC management          18. Manuals/
Programs    have policies and        should establish policies   procedures for
and         procedures (except       and procedures on           program and
Services    for the                  responding,                 administrative
            Congressional or         documenting,                activities will be
            Election Day             communicating, and          prepared in accordance
            inquiries) to ensure     retaining answers to        with an action plan to
            that responses to        questions raised by the     be submitted in
            questions from           states in the               response to the draft
            states are formally      administration of the       assessment report.
            documented and           HAVA funds.
            centrally filed in a
            manner to allow
            quick access and to
            avoid duplication of
            effort in researching
            the answers.




                                                 20
                             Appendix A


EAC Management [Final] Response to Draft Report Entitled “Assessment of
            EAC’s Program and Financial Operations”




                                  21
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1225 New York Ave. NW - Suite 1100
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: U.S. Election Assistance Commission
Waste and Abuse                Office of Inspector General
Involving the U.S.             1225 New York Ave. NW - Suite 1100
Election Assistance            Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
